           SENSITIVE BUT UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Office of Inspector General




                 Report of Inspection

       The International
   Broadcasting Bureau’s
  Philippines Transmitting
           Station


Report Number ISP-IB-07-37A, September 2007




                             IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be made,
 in whole or in part, outside the Department of State or the Broadcasting Board of
 Governors, by them or by other agencies or organizations, without prior authorization
 by the Inspector General. Public availability of the document will be determined by
 the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
 this report may result in criminal, civil, or administrative penalties.




           SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                                TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
           Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
           Setting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
           Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
PROGRAM PERFORMANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
           Fiber Optic Link . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
           Transmission Reliability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
           Community Action Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
PROGRAM MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
           Staffing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
           Information Management and Information Security . . . . . . . . . . . . . . . . . . 11
MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




                         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                KEY JUDGMENTS

•   The Philippines Transmitting Station effectively operates two sites located 115
    miles apart that send medium wave and shortwave broadcasts.
•   An authorized, but vacant, American direct-hire position for a transmitting
    plant supervisor is unneeded due to technological advances allowing the Poro
    site to be operated remotely from the Tinang site.
•   The responsibilities of the Asia regional resource management specialist, now
    located at the chancery compound in Manila, could be successfully conducted
    in Washington. This position should be relocated to Washington.
•   The information technology support staff recognizes how critical they are to
    the world-wide mission of the International Broadcasting Bureau (IBB) and are
    providing quality support not only to the Philippines but to the other stations
    of East Asia, the Pacific region, and Kuwait.
    The purpose of this inspection was to assess the general operations of IBB’s
Philippines Transmitting Station, including its management, operational perfor-
mance, human resources, security, information management, and management
controls. The inspection took place in Washington, DC, between January 3
and 19, 2007; and at the Tinang site between February 28 and March 1, 2007, con-
currently with the inspection of Embassy Manila by a team headed by Ambassador
Eileen A. Malloy. It was conducted in accordance with quality standards for inspec-
tions prescribed by the President’s Council on Integrity and Efficiency by Marjorie
A. Lynch, Peter Stella, and Michelle L. Wood.




OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   1 .


                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




2 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                          CONTEXT



OVERVIEW
    The Philippines Transmitting Station effectively carries out its broadcasting
mission for the U.S. government. Four American direct-hire employees, including
three Foreign Service specialists and one Civil Service employee, supervise a large,
complex operation and keep it running efficiently. One American direct-hire
employee works out of the chancery in Manila. Coordination and cooperation with
the embassy are excellent. The American staff members have developed long-
standing, ongoing community action programs that have cemented positive relation-
ships with villages surrounding the station. Security issues are addressed in a classi-
fied annex to this report.



SETTING
     The U.S. government has broadcast from the Philippines since the late 1940s.
The current Philippines Transmitting Station on the island of Luzon is composed
of two separate transmitter sites. Broadcasting began at these sites in 1968 and
became fully operational in 1969. The larger facility is located at Tinang, in Tarlac
Province about 80 miles from Manila, and a much smaller facility is at Poro Point,
in La Union Province, about 115 miles from Tinang or 195 miles from Manila. The
plant at Tinang occupies nearly 2,300 acres of land that is surrounded by sugar cane
fields and rice paddies. The Poro plant at San Fernando City, La Union is located on
a peninsula known as Poro Point, overlooking San Fernando Bay and Lingayen Gulf.

   The station is a dual medium wave/shortwave broadcast facility of IBB’s (for-
merly the Voice of America) overseas network. Using 16 transmitters, the facility
provides service to China, Vietnam, South and Southeast Asia, the Pacific Ocean,
and the Russian Far East. Based on a provision in the 1963 Bilateral Agreement,
IBB is required to provide Philippine government-owned Philippine Broadcasting
Service time on the transmitters. During FY 2006, the station broadcast approxi-
mately 3,800 hours at a cost of about $85,000.



OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   3 .


                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



          MISSION
              IBB transmits programs from the two sites in the following languages: English,
          Chinese/Mandarin, Chinese/Cantonese, Thai, Russian, Vietnamese, Lao, Khmer,
          Bangla, Korean, Indonesian, Burmese, and Tibetan. The target audiences of broad-
          casts transmitted from Tinang encompass the Russian Far East, China, Southeast
          Asia, South Asia, and the Pacific Ocean. The Poro facility transmits to audiences
          in Vietnam, China, and Southeast Asia. Languages broadcast from the Poro site
          include Vietnamese, Cantonese, Mandarin, and English.




4 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                    PROGRAM PERFORMANCE



FIBER OPTIC LINK
    Effective September 2006, the station converted from satellite reception of
transmissions to a trans-Pacific fiber optic link with the continental United States.
The link provides faster, cheaper, and more reliable transmission that is immune to
the atmospheric interference that is endemic with use of satellites. As a consequence
of the fiber optic cable, the Philippines Transmitting Station has become the gateway
for IBB in the Pacific region. Now broadcasts are received much more reliably at
the Philippines station and promptly transmitted from it to other stations in the East
Asian area.



TRANSMISSION RELIABILITY
    The station has performed well and achieved its mission. One significant mea-
sure of broadcast effectiveness is the availability rate. It is a performance measure
for evaluating station managers and staff and also shows how well the station’s mis-
sion was met. The rate is an assessment of a station’s ability to maximize its opera-
tional capabilities and to transmit the right program, on the right frequency, at the
right time. During January 2007, this rate was 99.72 percent. The Tinang site oper-
ates 24 hours a day while the Poro site is operational for 16 hours. Poro’s one million
watt medium wave transmitter is remote controlled from the Tinang site.

         The following table shows transmitting figures for January 2007.




OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   5 .


                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                              TRANSMISSION STATISTICS, ALL TRANSMISSIONS


               Transmitter No.                 Total            Total            Total               Total             Total
                 and Power                   Filament          Carrier         Scheduled           Program             Off/
                                              Hours            Hours            Program             Outage             Ons
                                                                                 Hours              Hours
            PHT-1, 200 KW                          348.7            290.6              263.5                 0.0               2
            PHT-2, 200 KW                          223.1            175.1              153.0                 0.1               6
            PHT-3, 200 KW                          105.6              74.8              62.0                 0.0               5
            PHT-4, 200 KW                          248.5            204.4              182.0                 0.1               9
            PHT-5, 200 KW                          150.7              93.8              70.5                 1.2           12
            PHT-6, 200 KW                          251.6            184.9              146.5                 0.0               2
            PHT-7, 200 KW                          315.8            252.2              219.0                 0.1               1
            PHT-8, 250 KW                          483.6            371.3              341.0                 0.2            11
            PHT-9, 250 KW                          433.7            337.3              310.0                 2.4           23
            PHT-10, 250 KW                         529.7            376.0              325.5                 2.8               5
            PHT-11, 250 KW                         538.6            469.0              434.0                 0.2           28
            PHT-12, 250 KW                         400.8            268.6              226.0                 1.2               9
            PHX-1, 50 KW                            26.9              19.2              12.0                 0.0               0
            PHX-2, 50 KW                           127.2            106.0               93.0                 0.1               0
            PHT-3, 50 KW                           140.8            100.6               77.5                 0.0               0
            PHP-A, 1000 KW                           N/A            181.2              178.0                 0.1               0

            Totals, All                         4,325.3           3,505.0           3,093.5                  8.5           113
            Transmissions:
                    Source: Philippines Transmitting Station Monthly Report (January 2007)



          COMMUNITY ACTION PROGRAMS
              The Tinang site is completely surrounded by five villages, with a total population
          of about 18,000 people. To enhance mutual understanding and foster a sense of
          cooperation between the station and the local communities, the station has long had


6 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



a civic action program. An Office of Inspector General (OIG) inspection of
Embassy Manila conducted in 2000 featured these programs as a best practice.
Those original projects have continued and others have begun. One project makes
1,400 acres of the site available for farming by the poorest residents of the neighbor-
ing villages. Another funds daycare grants for 257 five- and six-year-old indigent and
undernourished children. The children are fed nutritious meals and prepared for
formal schooling. These programs have proved their worth by the friendly relation-
ship that has been established between the local people and the station. There is no
local resistance to the presence of the station and no demonstrations or attempts to
interfere with operations.

Other Matters

    IBB’s Bangkok Affiliates Marketing Office has a nonpersonal services con-
tractor located in the Philippines. The individual is a marketing specialist with ex-
tensive local contacts especially in Mindanao, the southern region of the Philippines
with a large Muslim population. The contractor is helpful in placing broadcasts
targeted to the Muslim community.




OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   7 .


                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




8 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                      PROGRAM MANAGEMENT

     STAFFING COMPLEMENT                               FOREIGN                  FSN         PSA
                                                       SERVICE
                                                     SPECIALISTS
    Authorized Positions1                                      6                 73          20
    Employees on Duty                                          5                 73          11



STAFFING
    FUNDING                                                                         DOLLARS
    FY 2006 Annual Budget                                                             $4,759,903
    Total FY 2006 Inventory                                                        $51,884,755
    FY 2007 Estimated Budget                                                          $5,400,000

      Generally high morale at the station is evidenced by the cooperative working
rapport between the locally employed staff and the American managers. There is
little turnover of local staff except for retirements and special immigrant visas. The
transmitting station and Embassy Manila have productive working relationships that
include participation in a package of International Cooperative Administrative Sup-
port Services. The station manager is satisfied with the services provided, including
human resources, financial management, local guards, and some elements of general
services.

     An authorized, but presently vacant, American direct-hire position for a transmit-
ting plant supervisor (45-088) is unneeded. Due to technological advances, the sta-
tion has been able to consolidate operations at the Tinang site and operate the Poro
facility remotely from Tinang. The equipment at Poro still must be maintained and
that is done effectively by five local hires, local guards, and weekly supervisory visits
by an American. As a consequence of the consolidation, the station conducted two
reductions in force abolishing 19 local-hire positions, 13 during 2000, and six during

1
  These numbers do not agree with the official staffing pattern maintained by Embassy Manila.
See explanation in the staffing section of the report.



OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   9 .


                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



           2005. Also, an American direct-hire position was transferred from Poro to Tinang
           in June 2006. The station is functioning well under the consolidated operations, and
           there no longer is a justification for the vacant American direct-hire position that has
           been effectively replaced by advanced technology.


               Recommendation 1: The International Broadcasting Bureau should abolish
               the vacant transmitting plant supervisor position (45-088) at the Philippines
               Transmitting. (Action: IBB)



               The station formerly had a deputy director working at the Tinang site. In June
           2006, the position was reclassified as an Asia regional resource management sup-
           port specialist (43-048) and then was relocated to the chancery compound in Manila.
           IBB did not request National Security Decision Directive-38 approval for either the
           reclassification or the move. On paper the new responsibilities include providing
           resource management and analysis to the Broadcasting Board of Governors stations
           located in Asia, and the position’s primary responsibility is to assist with cost reduc-
           tion initiatives. Discussions with the incumbent specialist, however, revealed his
           main function is developing a budget database using Microsoft Access for stations
           in the Asia region that at present are using spreadsheets. Relocating the position to
           Washington would result in immediate savings to the U.S. government of at least
           $100,000 a year with potential savings of about $300,000 a year. There is no need
           for the Asia regional resource management specialist to have a physical presence in
           Manila as the specialist’s activities could be performed effectively from Washington.


               Recommendation 2: The International Broadcasting Bureau should trans-
               fer the Asia resource management specialist position (43-048) from Manila to
               Washington to achieve cost savings. (Action: IBB)



               The Embassy Manila official staffing pattern shows the Philippines Transmitting
           Station has 104 authorized local-hire positions. However, station records show 93.
           The station has undergone two reductions in force and made other personnel adjust-
           ments since 2000 that do not appear to be reflected in the official staffing pattern.
           The OIG team made an informal recommendation that the transmitting station
           coordinate with Embassy Manila to identify the number of authorized local-hire
           positions and adjust the official staffing pattern.



10 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



INFORMATION MANAGEMENT AND INFORMATION SECURITY
Overview

    The Satellite Interconnect System/Local Area Network (SIS/LAN) section
maintains and supports the unclassified network, which includes network hardware
(routers and switches), as well as satellites and the telephone system. The SIS/LAN
staff appears to be experienced, innovative, resourceful, and very security conscious.
Their satellite connection distributes data to seven transmitting stations in Asia
and the Middle East and is critical to the IBB mission abroad. However, the OIG
inspection team identified several areas for improvement: training for SIS/LAN
administrators, and updating the station’s Intranet site and agency policies regarding
personal hardware.

     The Philippines Transmitting Station has two primary SIS/LAN administrators
and five back-up personnel. IBB headquarters staff highly regard SIS/LAN admin-
istrators and relied upon them to provide guidance to their counterparts in the Asia
Pacific region. Recently, one of the SIS/LAN staff accompanied the IBB manager
of network applications to IBB’s Voice of America Hong Kong News Center to
resolve various server, router, and network issues. Additionally, the OIG inspection
team commends the SIS/LAN administrators for recognizing the need for security
and enforcing a higher standard of security than IBB requires. Despite the lack of a
deadline and enforcement from IBB regarding the annual security awareness training,
the SIS/LAN staff works with the station manager to obtain 100 percent comple-
tion, as well as maintain stricter configuration standards for their Windows XP work-
stations than the IBB configuration standards.

Information Management

    The two primary SIS/LAN staff members do not have sufficient training. Not
only the Philippines Transmitting Station, but the seven transmitting stations in Asia
and the Middle East rely significantly on the Philippines satellite connection. Un-
fortunately, due to lack of funds the SIS/LAN administrators did not receive all the
training necessary to support the satellites and the unclassified network. The SIS/
LAN administrators realize how critical they are to the mission of IBB. They wanted
to increase their effectiveness and efficiency despite the lack of funds for training,
so they taught themselves several areas of information technology that include voice
over Internet protocol and design and implementation of Windows networks. Even
with the self-taught skills, the SIS/LAN administrators do not have the training and
tools necessary to perform their duties effectively.


OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   11 .


                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



               Recommendation 3: The Philippines Transmitting Station, in coordination
               with the International Broadcasting Bureau, should provide all necessary train-
               ing for the two primary satellite interconnect system local area network admin-
               istrators to effectively perform their duties. (Action: The Philippines Transmit-
               ting Station, in coordination with IBB)


               The Philippines Transmitting Station’s Intranet site was developed and is main-
           tained by station SIS/LAN staff. Since this Intranet site was last updated in 2005, it
           now contains outdated and inconsistent information and links that no longer work.
           An outdated or incomplete system is not useful to the employees, and if information
           about the transmitting station is desired, employees typically must e-mail or tele-
           phone the station as there is little information on the Intranet. The OIG inspection
           team left an informal recommendation for the station to update the site.

           Information Security
                (b) (2)




               Recommendation 4: (b) (2)




12 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                    MANAGEMENT CONTROLS

    The management of the Philippines Transmitting Station is aware of the require-
ments of the Office of Management and Budget Circular A-123 and has established
adequate controls over resources. The station has performed a vulnerability as-
sessment and also established monthly operating reports that are used to improve
management efficiencies. The station manager performs monthly unannounced
cash counts of the subcashier located at the site. The subcashier’s advance is 25,000
Philippine pesos, about $500.




OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   13 .


                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




14 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                FORMAL RECOMMENDATIONS

Recommendation 1: The International Broadcasting Bureau should abolish the
  vacant transmitting plant supervisor position (45-088) at the Philippines Transmit-
  ting Station. (Action: IBB)

Recommendation 2: The International Broadcasting Bureau should transfer the
  Asia resource management specialist position (43-048) from Manila to Washing-
  ton to achieve cost savings. (Action: IBB)

Recommendation 3: The Philippines Transmitting Station, in coordination with
  the International Broadcasting Bureau, should provide all necessary training for
  the two primary satellite interconnect system local area network administrators to
  effectively perform their duties. (Action: The Philippines Transmitting Station,
  in coordination with IBB)

Recommendation 4: (b) (2)




OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   15 .


                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




16 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




             INFORMAL RECOMMENDATIONS

Informal recommendations cover matters not requiring action by organizations out-
side of the inspected unit and/or the parent regional bureau and are not subject to
the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations.

The Embassy Manila official staffing pattern shows that the Philippines Transmitting
Station has 104 authorized local-hire positions. Yet, the transmitting station’s records
show only 93 locally employed positions, and station management verified the latter
number. The transmitting station has undergone two reductions in force and has
made other personnel adjustments since 2000 that do not appear to be reflected in
the embassy’s official staffing pattern. The transmitting station and the embassy’s
human resources section need to work together to correct the discrepancies.

Informal Recommendation 1: The Philippines Transmitting Station should coor-
dinate with Embassy Manila to identify the number of authorized local-hire posi-
tions and should request Embassy Manila to adjust the official staffing pattern.

The Philippines Transmitting Station Intranet site was last updated in 2005. It has
outdated information, links that no longer work, and inconsistent data or incomplete
data.

Informal Recommendation 2: The Philippines Transmitting Station should update
the station’s Intranet site and remove all links that are no longer valid.




OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   17 .


                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




18 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                          PRINCIPAL OFFICIALS

                                                          Name                             Arrival Date


Ambassador                                                Kristie A. Kenney                         03/06
Deputy Chief of Mission                                   Paul W. Jones                             09/05


International Broadcasting Bureau:
    Transmitting Station Director                         Terence J. Donovan                        04/05
    Asia Resource Mgt Supp Spec                           Harold B. Boyd                            08/03
    Plant Supervisor                                      John L. Chick                             03/02
    Facilities Supervisor                                 Samuel V. Baxter                          09/03
    Construction manager                                  David K. Leonard                          02/94




OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   19 .


                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




20 .   OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007


                            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                 ABBREVIATIONS

IBB                             International Broadcasting Bureau
OIG                             Office of Inspector General
SIS/LAN                         Satellite Interconnect System/Local Area Network




OIG Report No. ISP-IB-07-37A, The International Broadcasting Bureau’s Philippines Transmitting Station, Sept. 2007   21 .


                        SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
